Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL


 MEDICARE PART B PRESCRIPTION
 DRUG DISPENSING AND SUPPLYING
    FEE PAYMENT RATES ARE
 CONSIDERABLY HIGHER THAN THE
RATES PAID BY OTHER GOVERNMENT
           PROGRAMS


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                  Daniel R. Levinson
                                                   Inspector General

                                                    September 2014
                                                     A-06-12-00038
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                               INTRODUCTION

    Medicare Part B could save millions of dollars annually if its rates for dispensing and
    supplying fees were aligned with rates that Medicare Part D and State Medicaid programs pay.

WHY WE DID THIS REVIEW

Medicare Part B (Part B) pays a dispensing fee for inhalation drugs administered through durable
medical equipment (inhalation drugs). Part B also pays a supplying fee for immunosuppressive
drugs associated with an organ transplant (immunosuppressive drugs), oral anticancer
chemotherapeutic drugs (anticancer drugs), and oral antiemetic drugs used as part of an
anticancer chemotherapeutic regimen (antiemetic drugs). In 2011, Part B paid nearly
$133 million for dispensing and supplying fees for these drugs. In previous work, we noticed a
large disparity between the supplying fee amount that Part B paid for immunosuppressive drugs
and the amounts Medicare Part D (Part D) sponsors and State Medicaid programs paid.

OBJECTIVE

Our objective was to determine whether Medicare Part B could have achieved cost savings for
prescription drug dispensing and supplying fees during 2011.

BACKGROUND

Medicare Part B Dispensing and Supplying Fees

Title XVIII of the Social Security Act (the Act) established Part B, which provides
supplementary medical insurance for medical and other health services. Part B pays for a limited
number of drugs, including inhalation drugs, immunosuppressive drugs, anticancer drugs, and
antiemetic drugs. Additionally, Part B pays a fee for dispensing or supplying the drugs if the fee
is billed on the same claim as the drug. 1 Part B pays 80 percent of these fees, and the beneficiary
is responsible for the remaining 20 percent.

Part B dispensing fees for inhalation drugs are set in regulation (42 CFR §§ 414.1001(c) and (d)).
Part B pays pharmacies a $45.60 dispensing fee for the initial 30-day period. 2 This is a one-time
dispensing fee applicable only to beneficiaries who use inhalation drugs for the first time as
Medicare beneficiaries. After that initial dispensing fee, Part B pays dispensing fees of $26.40
for each 30-day period or $52.80 for each 90-day period.

Part B supplying fees for immunosuppressive drugs, oral anticancer drugs, and oral antiemetic
drugs are also set in regulation (42 CFR §§ 414.1001(a) and (b)). Part B pays pharmacies a

1
 The fee paid under Part B for dispensing inhalation drugs is referred to as a “dispensing fee,” but the fee paid for
dispensing immunosuppressive, oral anticancer, and antiemetic drugs is referred to as a “supplying fee.”
2
 The dispensing and supplying fee payment amounts identified in this report represent the Part B portion of the total
payment (i.e., 80 percent).

Medicare Part B Dispensing and Supplying Fees (A-06-12-00038)                                                           1
$19.20 supplying fee for the first prescription provided to a beneficiary in any 30-day period and
$12.80 for each subsequent prescription provided to the same beneficiary during the same 30-day
period. A pharmacy is limited to one $19.20 supplying fee per 30-day period even if it supplies
more than one category of these drugs to a beneficiary. In addition, Part B pays a $40.00
supplying fee for the initial immunosuppressive drug prescription during the first month
following a beneficiary’s transplant.

Medicare Part D

The Medicare Prescription Drug, Improvement, and Modernization Act of 2003 amended the Act
to establish the Voluntary Prescription Drug Benefit Program, known as Part D. 3 Individuals
entitled to benefits under Medicare Part A or enrolled in Part B may obtain drug coverage under
Part D. The Centers for Medicare & Medicaid Services (CMS) administers Part D and contracts
with private entities, called sponsors, which act as payers and insurers for prescription drug
benefits. Inhalation drugs, immunosuppressive drugs, oral anticancer drugs, and oral antiemetic
drugs are also available through Part D. Sponsors establish the payment rates for Part D drugs
and their associated dispensing fees. 4

Medicaid

The Medicaid program provides medical assistance, including drug coverage, to low-income
individuals and individuals with disabilities (Title XIX of the Act). The Federal and State
Governments jointly administer and fund Medicaid. Inhalation drugs, immunosuppressive
drugs, oral anticancer drugs, and oral antiemetic drugs are also available through Medicaid.
Each State establishes the payment rates for Medicaid drugs and their associated dispensing
fees. 5

HOW WE CONDUCTED THIS REVIEW

Our review covered $106,486,093 in Part B dispensing fee payments for 3,740,544 paid claims
and $26,410,050 in Part B supplying fee payments for 1,659,643 paid claims in 2011. We
calculated quarterly average dispensing fee payment amounts for Part D and State Medicaid
programs and compared them with Part B dispensing and supplying fees.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains the details of our audit scope and methodology.

3
  The Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173, § 101; the Act,
§ 1860D-1(a); 42 U.S.C., § 1395w-101(a).
4
    The fee paid for dispensing all Part D drugs is referred to as a “dispensing fee.”
5
    The fee paid for dispensing all Medicaid drugs is referred to as a “dispensing fee.”

Medicare Part B Dispensing and Supplying Fees (A-06-12-00038)                                                 2
                                                   FINDINGS

Part B would have saved millions of dollars in 2011 if dispensing and supplying fees had been
aligned with the rates that Part D and State Medicaid programs paid. Part B paid $132,896,143
in dispensing and supplying fees. We estimated that if Part B rates had been the same as the
average Part D rates, Part B would have paid dispensing and supplying fees of $22,033,834, a
savings of $110,862,309. We also estimated that if Part B rates had been the same as the average
State Medicaid program rates, Part B would have paid dispensing and supplying fees of
$26,608,766, a savings of $106,287,377. 6

Part B paid $52.80, $45.60, or $26.40 for inhalation drug dispensing fees, depending on the
beneficiary’s history and the duration of supply. The quarterly average dispensing fee that
Part D sponsors paid ranged from $4.57 to $4.65, and the quarterly average dispensing fee that
State Medicaid programs paid ranged from $4.56 to $4.64.

Part B paid $40.00, $19.20, or $12.80 for immunosuppressive, oral anticancer, and oral
antiemetic drug supplying fees, depending on the beneficiary’s history and number of
prescriptions filled in a 30-day period. The quarterly average dispensing fee that Part D sponsors
paid ranged from $1.81 to 1.85, and the quarterly average dispensing fee that State Medicaid
programs paid ranged from $4.56 to $4.64.

Tables 1 and 2 show the estimated amounts Part B would have saved in 2011 on dispensing and
supplying fees if the Part B rates had been the same as the Part D or State Medicaid program
rates.

           Table 1: Estimated Part B Savings Using Average Part D Payment Rates

                         Actual Part B            Estimated Part B Payment Amount                  Cost Savings
                        Payment Amount                Using Part D Average Rates                     Amount
    Dispensing Fee        $106,486,093                       $18,963,528                            $87,522,565
    Supplying Fee           26,410,050                          3,070,306                            23,339,744
     Total                $132,896,143                       $22,033,834                           $110,862,309

       Table 2: Estimated Part B Savings Using Average State Medicaid Payment Rates

                         Actual Part B            Estimated Part B Payment Amount                  Cost Savings
                        Payment Amount              Using Medicaid Average Rates                     Amount
    Dispensing Fee        $106,486,093                       $18,895,823                            $87,590,270
    Supplying Fee           26,410,050                         7,712,943                             18,697,107
     Total                $132,896,143                       $26,608,766                           $106,287,377

Appendix B contains our mathematical calculation plan.


6
 The savings estimated in this report represent the savings that Part B could achieve; we did not estimate the
copayment savings that beneficiaries could achieve if the Part B fees were reduced.

Medicare Part B Dispensing and Supplying Fees (A-06-12-00038)                                                     3
                                       RECOMMENDATION

We recommend that CMS amend current regulations to decrease the Part B payment rates for
dispensing and supplying fees to rates similar to those of other payers, such as Part D and
Medicaid.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In written comments on our draft report, CMS indicated that it did not concur with our
recommendation at this time. CMS commented that while the report provided useful information
about payment differences, pharmacies that dispense and supply significant amounts of the drugs
we analyzed have said that the higher fees are necessary to support activities associated with
dispensing the drugs to Medicare patients, such as Part B claim submission or the delivery of
inhalation drugs. CMS indicated that before CMS could concur with the recommendation, it was
requesting that the Office of Inspector General conduct a study to identify the specific activities
involved with dispensing inhalation drugs and supplying oral drugs under Part B and collect
information about the actual costs that are directly associated with dispensing and supplying
these Part B drugs.

CMS’s comments are included in their entirety as Appendix C.

OFFICE OF INSPECTOR GENERAL RESPONSE

Our review shows that pharmacies are reimbursed significantly more money for dispensing drugs
under Part B when compared with what they are paid for dispensing the same drugs under Part D
and Medicaid. Pharmacists did not identify any additional clinical services or additional
handling and storage requirements necessary to provide these drugs to Part B beneficiaries that
would justify the substantially higher payment. For this reason, CMS’s proposal for OIG to
undertake a study to identify potential cost differences in dispensing drugs to beneficiaries of
Part B versus beneficiaries of Part D or Medicaid is unlikely to be a useful deployment of
Government resources, and OIG does not plan to undertake such a study at this time. Should any
such differences exist, the notice-and-comment rulemaking process in which CMS would engage
to propose lowered Part B dispensing and supplying fees would offer the pharmacy community
adequate opportunity to identify differences and help CMS determine the appropriate fees.




Medicare Part B Dispensing and Supplying Fees (A-06-12-00038)                                    4
                   APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our review covered $106,486,093 in Part B dispensing fee payments for 3,740,544 paid claims
and $26,410,050 in Part B supplying fee payments for 1,659,643 paid claims in 2011. We used
Part B drug claim data to calculate cost savings associated with dispensing and supplying fees;
we did not evaluate the drug claims to determine whether they were medically necessary. Our
objective did not require a review of internal controls.

We performed our audit work from August through November of 2013.

METHODOLOGY

To accomplish our objective, we:

    •   calculated quarterly average dispensing fee payment amounts for Part D and State
        Medicaid programs and compared them with Part B dispensing and supplying fees
        (Appendix B) and

    •   discussed the results of our review with CMS officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Medicare Part B Dispensing and Supplying Fees (A-06-12-00038)                                     5
                  APPENDIX B: MATHEMATICAL CALCULATION PLAN

DESCRIPTION OF MATHEMATICAL CALCULATION

We estimated the potential cost savings for Part B dispensing and supplying fees during 2011 by
comparing the actual Part B payments with estimated Part B payments using (1) average
payment amounts for Part D and (2) average payment amounts for State Medicaid programs.

The following tables show the Healthcare Common Procedure Coding System (HCPCS) codes
pharmacies use to bill for dispensing and supplying fees and the Part B payment amounts. 7

                         Table 3: Dispensing Fee Codes and Amounts Paid

       HCPCS                                                                                             Paid
        Code                                    Description                                             Amount
                   Initial 30-day period. A one-time fee applicable only to beneficiaries
      G0333        who used inhalation drugs for the first time as Medicare
                   beneficiaries.                                                                        $45.60
      Q0513        30-day period for inhalation drugs.                                                   $26.40
      Q0514        90-day period for inhalation drugs.                                                   $52.80

                          Table 4: Supplying Fee Codes and Amounts Paid

       HCPCS                                                                                             Paid
        Code                                    Description                                             Amount
                   First immunosuppressive, oral anticancer, or oral antiemetic drug
      Q0511
                   prescription provided to a beneficiary in any 30-day period.                          $19.20
                   Each subsequent immunosuppressive, oral anticancer, or oral
      Q0512        antiemetic drug prescription provided to the same beneficiary during
                   the same 30-day period.                                                               $12.80
                   The initial immunosuppressive drug prescription during the first
      Q0510        month following a beneficiary’s transplant.                                           $40.00

MATHEMATICAL CALCULATION METHODOLOGY

A Part B dispensing or supplying fee is billed as a separate line of service from the line of
service used to bill for the prescription drug. We obtained from CMS’s National Claims History
file Part B claims that included at least one of the six dispensing or supplying HCPCS codes with
dates of service during 2011. Part B paid $106,486,093 for 3,740,544 dispensing fees and
$26,410,050 for 1,659,643 supplying fees.


7
 The HCPCS is a medical code set used throughout the health care industry as a standardized system for describing
and identifying health care procedures, equipment, and supplies in health care transactions.



Medicare Part B Dispensing and Supplying Fees (A-06-12-00038)                                                   6
Most Part B claims that pharmacies submit for prescription drugs are billed using HCPCS
codes. 8 However, Part D prescription drug claims that pharmacies submit to Part D sponsors use
NDCs. 9

Estimated Part B Savings Using Average Part D Inhalation Drug Payment Amounts

To estimate the potential cost savings for Part B prescription drug dispensing fees, we performed
the following steps:

Step 1—Identified the NDCs.

Using the CMS crosswalk that converts HCPCS codes to NDCs, we identified the NDCs that
represented the Part B prescription drugs that were billed on the same claim as Part B dispensing
fees. There were 156 unique NDCs associated with these Part B dispensing fee drug HCPCS
codes.

Step 2—Obtained Part D prescription drug event (PDE) records. 10

We obtained from CMS’s Drug Data Processing System the 2011 Part D PDE records for the
156 unique NDCs identified in step one. There were 2,113,577 PDE records for 118 of the 156
unique NDCs, and the total dispensing fee payment amount was $9,771,769. The remaining 38
NDCs were not billed.

Step 3—Calculated the quarterly average for drug dispensing fees.

We divided the total dispensing fee payments for the 118 unique NDCs in the quarter by the total
number of PDE records for those NDCs.

             Table 5: Part D Quarterly Average Dispensing Fees for Inhalation Drugs

                                Number of PDE           Dispensing Fee            Average
                   Quarter         Records              Paid Amount            Dispensing Fee
                     1              562,625               $2,573,248               $4.57
                     2              526,460                2,438,461                $4.63
                     3              508,935                2,361,024                $4.64
                     4              515,557                2,399,036                $4.65
                    Total         2,113,577               $9,771,769


8
    Part B oral anticancer drugs are billed with both National Drug Codes (NDCs) and HCPCS codes.
9
  Each drug recognized by the Food and Drug Administration is assigned an NDC, which is an 11-digit identifier
that indicates the manufacturer of the drug, the product dosage form, and the package size.
10
  A PDE record contains data about Part D prescriptions, such as the dispensing fee, beneficiary, physician,
pharmacy, drug, quantity dispensed, and the prescription fill date.



Medicare Part B Dispensing and Supplying Fees (A-06-12-00038)                                                    7
Step 4—Calculated a potential cost savings.

We estimated what Part B would have paid using the Part D average dispensing fee rates:

    •    For Part B lines of service with HCPCS code Q0513, we multiplied the Part D quarterly
         average dispensing fee amount by the number of lines of service paid for the code each
         quarter.

    •    For Part B lines of service with HCPCS codes G0333 and Q0514, we doubled the Part D
         quarterly average dispensing fee amount (to compensate for the increased Part B
         dispensing fee amounts) and multiplied the doubled amount by the number of lines of
         service paid for these codes each quarter.

We calculated a potential cost savings by deducting these amounts from the actual amount Part B
paid.

 Table 6: Estimated Part B Dispensing Fee Savings Using Average Part D Payment Rates

                                          Part B
                                          Claims                        Actual
         Average            Part B         With          Estimated      Part B
          Part D            Claims        G0333       Part B Amount   Dispensing
        Dispensing           With           or         Using Part D    Fee Paid          Cost
Quarter    Fee              Q0513         Q0514           Average      Amount          Savings
            A                 B             C                D            E               F
                                                      (AxB)+(2xAxC)                     (E-D)
  1            $4.57         713,470      89,354         $4,077,253    $23,087,090   $19,009,837
  2            $4.63         867,976      94,581          4,894,549     27,441,550    22,547,001
  3            $4.64         888,530      84,377          4,905,798     27,519,216    22,613,418
  4            $4.65         910,764      91,492          5,085,928     28,438,237    23,352,309
 Total                     3,380,740     359,804        $18,963,528   $106,486,093   $87,522,565


Estimated Part B Savings Using Average Part D Immunosuppressive, Oral Anticancer, and
Oral Antiemetic Drug Payment Amounts

To estimate the potential cost savings for Part B prescription drug supplying fees, we performed
the following steps:

Step 1—Identified the NDCs.

Using the CMS crosswalk that converts HCPCS codes to NDCs, we identified the NDCs that
represent the Part B prescription drugs that were billed on the same claim as Part B dispensing
fees. There were 1,405 unique NDCs associated with these Part B supplying fee drug HCPCS
codes.



Medicare Part B Dispensing and Supplying Fees (A-06-12-00038)                                      8
Step 2—Obtained Part D PDE records.

We obtained from CMS’s Drug Data Processing System the 2011 Part D PDE records for the
1,405 unique NDCs identified in step one. There were 13,840,456 PDE records for 486 of the
1,405 unique NDCs, and the total dispensing fee payment amount was $25,363,753. The
remaining 919 NDCs were not billed.

Step 3—Calculated quarterly average for dispensing fee drugs.

We divided the total dispensing fee payments for the 486 unique NDCs in the quarter by the total
number of PDE records for those NDCs.

        Table 7: Part D Quarterly Average Dispensing Fees for Immunosuppressive,
                       Oral Anticancer, and Oral Antiemetic Drugs

                            Number of PDE          Dispensing Fee      Average
                Quarter        Records             Paid Amounts     Dispensing Fee
                  1            3,610,732              $6,630,444        $1.84
                  2            3,341,694               6,166,435         $1.85
                  3            3,346,420               6,171,394         $1.84
                  4            3,541,610               6,395,480         $1.81
                 Total        13,840,456            $25,363,753

Step 4—Calculated a potential cost savings.

We estimated what Part B would have paid using the Part D average dispensing fee rates:

    •   For Part B lines of service with HCPCS codes Q0511 and Q0512, we multiplied the
        Part D quarterly average dispensing fee amount by the number of lines of service paid for
        the code each quarter.

    •   For Part B lines of service with HCPCS code Q0510, we doubled the Part D quarterly
        average dispensing fee amount (to compensate for the increased Part B supplying fee
        amounts) and multiplied the doubled amount by the number of lines of service paid for
        these codes each quarter.

We calculated a potential cost savings by deducting these amounts from the actual amount Part B
paid.




Medicare Part B Dispensing and Supplying Fees (A-06-12-00038)                                   9
     Table 8: Estimated Part B Supplying Fee Savings Using Average Part D Payment Rates

                               Part B
         Average               Claims         Part B      Estimated Part Actual Part
          Part D                With          Claims        B Amount     B Supplying
        Dispensing            Q0511 or         With        Using Part D   Fee Paid
Quarter    Fee                 Q0512          Q0510          Average       Amount                     Cost Savings
            A                    B              C               D             E                            F
                                                          (AxB)+(2xAxC)                                  (E-D)
1               $1.84           382,107        3,624          $716,413    $6,125,269                   $5,408,856
2               $1.85           409,641        3,500           770,786     6,583,884                    5,813,098
3               $1.84           421,732        3,550           789,051     6,781,305                    5,992,254
4               $1.81           432,273        3,216           794,056     6,919,592                    6,125,536
    Total                     1,645,753       13,890        $3,070,306   $26,410,050                  $23,339,744


Estimated Savings Using Medicaid Averages

Each quarter, State Medicaid agencies publish the dispensing fee payments they will make to
pharmacies. State Medicaid programs pay the same dispensing fee rates for both categories of
drugs we analyzed. As a result, we calculated one overall potential cost savings for Part B
dispensing and supplying fee drugs.

Step 1—Calculated quarterly dispensing fee averages.

We identified the published dispensing fees each State paid and calculated an average for each
quarter by dividing the sum of published dispensing fee rates by 50. 11 If a State published a
range of dispensing fee rates, we used the average of that State’s rates. For example, for the first
quarter of 2011, Alaska paid dispensing fees ranging from $3.45 to $11.46, depending on the
pharmacy and its Medicaid volume, so we used the average of $7.46 for the quarter. One State
published different dispensing fee rates for not-for-profit and for-profit pharmacies, and we used
the higher for-profit rate. Also, two States published different dispensing fee rates for
retail/independent and institutional pharmacies, and we used the higher retail/independent rate.
Additionally, if States published different dispensing fee rates related to any of the following, we
did not include these dispensing fees in determining the State’s average Medicaid dispensing fee:

            •   compound prescriptions (6 States);

            •   intravenous therapy (2 States);

            •   repackaging (1 State);

            •   pharmaceutical care (1 State);

11
  We used the results for 49 States and the District of Columbia. We excluded Texas because it calculates
dispensing fees on the basis of a flat fee and a percentage of drug cost, and we did not have drug cost data.


Medicare Part B Dispensing and Supplying Fees (A-06-12-00038)                                                   10
          •    drugs used out of State (1 State);

          •    mail-order drugs (1 State);

          •    insulin syringes (1 State); or

          •    creams, emulsions, nasal drops, ointments, or optic drugs (1 State).

                     Table 9: Medicaid Quarterly Average Dispensing Fees

                                    Sum of States’                 Overall
                                       Average                     Average
                                    Dispensing Fee                 Medicaid
                            Quarter     Rates                   Dispensing Fee
                              1        $232.16                      $4.64
                              2        $232.16                      $4.64
                              3        $230.07                      $4.60
                              4        $227.99                      $4.56

Step 2—Calculated a potential cost savings for Part B dispensing fee drugs and supplying fee
drugs.

We estimated what Part B would have paid using the State Medicaid average dispensing fee
rates:

          •   For Part B lines of service with HCPCS code Q0513, we multiplied the State
              Medicaid quarterly average dispensing fee amount by the number of lines of service
              paid for the code each quarter.

          •   For Part B lines of service with HCPCS codes G0333 and Q0514, we doubled the
              State Medicaid quarterly average dispensing fee amount (to compensate for the
              increased Part B dispensing fee amounts) and multiplied the doubled amount by the
              number of lines of service paid for these codes each quarter.

We calculated a potential cost savings by deducting these amounts from the actual amount
Part B paid.




Medicare Part B Dispensing and Supplying Fees (A-06-12-00038)                                  11
                       Table 10: Estimated Part B Dispensing Fee Savings
                            Using Average Medicaid Payment Rates

                                           Part B
                                           Claims                       Actual
         Average             Part B         With         Estimated      Part B
        Medicaid             Claims        G0333      Part B Amount   Dispensing
        Dispensing            With           or       Using Medicaid   Fee Paid         Cost
Quarter    Fee               Q0513         Q0514          Average      Amount         Savings
            A                  B             C               D            E              F
                                                      (AxB)+(2xAxC)                    (E-D)
   1           $4.64          713,470      89,354        $4,139,706   $23,087,090   $18,947,384
   2           $4.64          867,976      94,581         4,905,120    27,441,550    22,536,430
   3           $4.60          888,530      84,377         4,863,506    27,519,216    22,655,710
   4           $4.56          910,764      91,492         4,987,491    28,438,237    23,450,746
  Total                     3,380,740     359,804       $18,895,823  $106,486,093   $87,590,270

We estimated what Part B would have paid using the State Medicaid average dispensing fee
rates:

          •   For Part B lines of service with HCPCS codes Q0511 and Q0512, we multiplied the
              State Medicaid quarterly average dispensing fee amount by the number of lines of
              service paid for the code each quarter.

          •   For Part B lines of service with HCPCS codes Q0510, we doubled the State
              Medicaid quarterly average dispensing fee amount (to compensate for the increased
              Part B supplying fee amounts) and multiplied the doubled amount by the number of
              lines of service paid for these codes each quarter.

We calculated a potential cost savings by deducting these amounts from the actual amount
Part B paid.

Table 11: Estimated Part B Supplying Fee Savings Using Average Medicaid Payment Rates

                             Part B                                    Actual
         Average             Claims        Part B       Estimated      Part B
        Medicaid              With         Claims     Part B Amount Supplying
        Dispensing          Q0511 or        With      Using Medicaid  Fee Paid          Cost
Quarter    Fee               Q0512         Q0510         Average       Amount         Savings
            A                  B             C              D             E              F
                                                      (AxB)+(2xAxC)                    (E-D)
   1           $4.64          382,107       3,624       $1,806,607    $6,125,269     $4,318,662
   2            4.64          409,641       3,500        1,933,214     6,583,884      4,650,670
   3            4.60          421,732       3,550        1,972,627     6,781,305      4,808,678
   4            4.56          432,273       3,216        2,000,495     6,919,592      4,919,097
  Total                     1,645,753      13,890       $7,712,943   $26,410,050    $18,697,107


Medicare Part B Dispensing and Supplying Fees (A-06-12-00038)                                12
 APPENDIX C: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS 





  {,,.,...~
   DEPARTMENT OF HEALTH & HUMAN SERVICES                                   Cente111 for Medica1'11 & Medicaid Services

  "6,3­                                                                                 Administrator
                                                                                        Washington, DC 20201




               DATE:          JUN -9 2014

               TO:           Daniel R. Levinson
                             Inspector General

               FROM:


               SUBJECT:      Office oflnspector General (OIG) Draft Report: Medicare Part B Prescription
                             Drug Dispensing and Supplying Fee Payment Rates Are Consistently Higher
                             Than the Rates Paid by Other Government Programs (A-06-12-00038)

               The Centers for Medicare & Medicaid Services (CMS) appreciates the opportunity to review and
               comment on the above subject OIG draft report. OIG's objective was to determine whether
               Medicare Part B could have achieved cost savings for prescription drug dispensing and
               supplying fees during 2011. Medicare Part B pays a dispensing fee for inhalation drugs and a
               supplying fee for immunosuppressive drugs, certain oral anti-cancer drugs and oral antiemetic
               drugs used as part ofan anti-cancer chemotherapeutic regimen. In 20 II, these fees were
               associated with approximately 5.4 million claims and totaled approximately $133 million in
               Medicare payments. The inhalation drug dispensing fee accounts for most ofthe Part B claims
               and payments for dispensing and supplying fees. Medicare's portion ofthe payment for the fee
               (net ofcoinsurance) ranges from $12.80 to $52.80 depending on factors such as whether an
               initial prescription is being filled and the number ofdays oftherapy that are dispensed. The fees
               are described in regulation text at 42 CFR 414.1001 (note that the values published in regulation
               text are higher because they include 20 percent coinsurance).

               The OIG report compared Medicare's payment for Part B dispensing and supplying fees to
               average dispensing fees in Medicare Part D and Medicaid. The quarterly average Part D
               dispensing fees, which are established by plan sponsors, were approximately $1.84 for the oral
               drugs and $4.60 for the inhalation drugs. The quarterly Medicaid fees, which are established by
               the states, were approximately $4.60 for all drugs. Using these values, OIG estimated that if
               average Part D or Medicaid dispensing fees were used in place ofthe current Part B inhalation
               drug dispensing fees, a savings ofapproximately $87.6 million would be realized. Similarly, if
               average Part D or Medicaid dispensing fees were used instead ofthe current Part B
               immunosuppressive and oral anticancer, and oral antiemetic drug supplying fees, OIG estimated
               that savings ofbetween $18.7 and $23.3 million would be realized. The total estimated savings
               was between $106 and $111 million.

               The OIG recommendation and CMS response to the recommendation is discussed below.




Medicare Part B Dispensing and Supplying Fees (A-06-12-00038)                                                                        13
             Page 2 • Daniel R. Levinson



             OIG Recommendation

             The OIG recommended that CMS amend its regulations to decrease the Part B payment rates for
             dispensing and supplying fees to rates similar to those of other payers, such as Part D and
             Medicaid.

             CMS Response

             The CMS non-concurs with this recommendation at this time. The OIG study points out that
             there is a large difference in the dollar amount ofthe dispensing fees paid by Medicare Part B
             compared to Medicare Part D and Medicaid. For example, the report indicates that the quarterly
             average inhalation drug dispensing fee paid by Medicare Part D sponsors ranged from $4.57 to
             $4.65, while Part B paid $45.60 (net ofcoinsurance) for the first 30-day supply ofthese drugs,
             and $26.40 (net ofcoinsurance) for each subsequent 30-day supply or $45.60 (net of
             coinsurance) for a 90 day supply. While this is useful information about payment differences,
             pharmacies that dispense and supply significant amounts ofimmunosuppressive, oral anticancer,
             oral antiemetic and inhalation drugs to Medicare beneficiaries have argued that the higher fees
             are necessary to suppon activities that are associated with dispensing these drugs to Medicare
             patients, such as Part B claims submission or the delivery ofinhalation drugs. Given this
             argument, we believe that additional information specific to Part B drugs is needed before we
             could consider undertaking notice and comment rulemaking that will be required to change the
             Part B supplying and dispensing fees. Therefore, before we can concur with this
             recommendation, we request that OIG conduct a study that would-(a) identify the specific
             activities involved with dispensing inhalation drugs and supplying oral drugs under Part B; and
             (b) collect information about the actual costs that are directly associated with dispensing these
              Part B drugs.

             The CMS thanks OIG for the work done on this issue and looks forward to working with OIG in
             the future.




M edicare Part B Dispensing and Supplying Fees (A-06-12-00038)                                                   14
